     DEPARTMENT OF HEALTH & HUMAN SERVICES                                 Office of Inspector General

                                                                           Office of Audit Services, Region IX
                                                                           90 – 7th Street, Suite 3-650
                                                                           San Francisco, CA 94103

February 27, 2012

Report Number: A-09-12-02006

Ms. Patricia McManaman
Director
Department of Human Services
State of Hawaii
1390 Miller Street, Room 209
Honolulu, HI 96813-2936

Dear Ms. McManaman:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Contract Provisions for the Hawaii QUEST Expanded
Access Risk Share Program Not Implemented. We will forward a copy of this report to the HHS
action official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Doug Preussler, Audit Manager, at (415) 437-8360 or through email at
Doug.Preussler@oig.hhs.gov. Please refer to report number A-09-12-02006 in all
correspondence.

                                             Sincerely,



                                             /Lori A. Ahlstrand/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Patricia McManaman


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
 Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




 CONTRACT PROVISIONS FOR THE
HAWAII QUEST EXPANDED ACCESS
     RISK SHARE PROGRAM
       NOT IMPLEMENTED




                        Daniel R. Levinson
                         Inspector General

                          February 2012
                          A-09-12-02006
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                       INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. In Hawaii, the
Department of Human Services (State agency) administers the program.

Section 1115 of the Act provides the Secretary of Health and Human Services with broad
authority to authorize demonstration projects to assist in promoting the objectives of the
Medicaid program. Under section 1115, the Secretary may waive compliance with any of the
requirements of section 1902 of the Act to enable States to carry out these projects and receive
Federal funds.

Hawaii QUEST Expanded Access Program

Hawaii provides comprehensive Medicaid coverage across the State to healthy children and
adults through managed care plans that receive capitated payments. The plans provide health
services in return for a monthly fixed payment for each enrolled recipient.

The QUEST Expanded Access program, a section 1115 demonstration project, permitted the
State agency to enroll aged, blind, and disabled populations in a capitated managed-care delivery
system for all covered services, including home-based community services and primary, acute,
and long-term care. Effective February 1, 2009, the State agency contracted with two managed-
care health plans to participate in the QUEST Expanded Access program: Evercare and ‘Ohana
Health Plan. The contract with each plan incorporates the State agency’s request for proposal
RFP-MQD-2008-006 and the plan’s individual proposal.

Risk Share Program

The QUEST Expanded Access risk share program (referenced in RFP-MQD-2008-006,
Appendix B) was required to be implemented on February 1, 2009. The objective of the risk
share program is to address the risk of a significant difference between total revenue (capitated
payments) received by the health plans for delivery of health care services and the aggregate
health care expenses of the plans. Specifically, the established capitation rates may not be
appropriate for the health services provided to the enrolled population.

Under the risk share program, the State agency shares in any significant difference between the
capitated payments and the actual net health care expenditures of the health plans. The plans are
required to submit annual financial reports within 45 days of the annual reporting period ended
June 30, the State’s fiscal yearend. However, because some of the data may not be available
within the 45-day period, the State agency will request that the plans submit updated financial



                                                 1
reports for the fiscal year ended June 30 for any adjustments through December 31. The updated
financial reports are due to the State agency by January 15.

Upon receiving the updated annual financial reports, the State agency is required to develop an
aggregate profit-and-loss statement and to compute a net loss or gain percentage based on the
total capitated payments to the health plans. The State agency uses this information to determine
whether the risk sharing provisions of the contract are applicable.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency properly implemented the contract
provisions for the QUEST Expanded Access risk share program.

Scope

Our audit covered the period February 1, 2009, through June 30, 2010. We did not review the
State agency’s overall internal control structure because our objective did not require us to do so.
We limited our review of the State agency’s internal controls to those controls applicable to the
contract provisions of the risk share program.

We conducted fieldwork in November 2011 at the State agency’s offices in Honolulu and
Kapolei, Hawaii.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal laws and regulations,

   •    reviewed the State agency’s contract terms with Evercare and ‘Ohana Health Plan,

   •    held discussions with CMS and State agency officials to gain an understanding of the
        QUEST Expanded Access risk share program and how the State agency administers and
        monitors the program, and

   •    discussed the results of our review with the State agency.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.




                                                 2
                           FINDING AND RECOMMENDATION

The State agency did not implement the contract provisions for the QUEST Expanded Access
risk share program for the period February 1, 2009, through June 30, 2010. The State agency did
not calculate a net loss or gain percentage based on total capitated payments to the two health
plans for the two State fiscal years ended June 30, 2009, and June 30, 2010. The State agency
informed us that it had not implemented contract provisions for the risk share program because it
is still adjusting certain capitation rates for the 2-year period. Because the payment amounts
have not been finalized, the health plans have not been able to update the required financial
reports.

RECOMMENDATION

We recommend that the State agency finalize payments to the health plans and implement the
contract provisions for the risk share program as soon as possible.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our finding. The State
agency described actions that it had taken or planned to take to address our recommendation.
The State agency’s comments are included in their entirety as the Appendix.




                                                3
APPENDIX
                                                                                                     Page 1 of2

                    APPENDIX: STATE AGENCY COMMENTS 





 NEIL ABERCROMBIE                                                               PATRICIA McMANAMAN
      GOVERNOR                                                                       DIR.~CTOR


                                                                               BARBARAA. YAMASH ITA
                                                                                  OEPUTY DIREC1'OR




                                           STATE OF HAWAII
                            DEPARTMENT OF HUMAN SERVICES
                                             P. O. Box 339
                                      Honolulu, Hawaii 96809-0339




Februaty 7,2012



Ms. Lori A. Ahlstrand 

Regional Inspector General for Audit Services 

Office ofAudit Services, Regi on IX 

90-7'" Street, Suite 3-650 

San Francisco, California 94 103 


Dear Ms. Ahlstratld:

Enclosed is lhe Department of Human Services' responses and corrective aClionplan related to 

your audit entitled Contract Provisiolls for the Hawaii QUEST Expanded Access Risk Share 

Program Not Implemented, audit number A-09-12-02006 dated January 2012. We appreciate the 

opportunity to comUlent on the audit report. 


Sincerely,


  -;!/G___
/ -
V
Patricia McManaman 

Director 


Enclosure




                                  AN EQUAL OPPORTUNITY AGENCY
                                                                                                   Page 2 of2




                                                                                         Enclosure



Findings and Recommendation

The State agency did not implement the contract provisions for the QUEST Expanded Access
(QExA) risk share program for the period February 1,2009, through June 30, 2010. The State
agency did not calculate a net loss or gain percentage based on total capitated payments to the two
health plans for the two State fiscal years ended June 30, 2009, and June 30, 2010. The State
agency informed us that it had not implemented contract provisions for the risk share program
because it is still adjusting certain capitation rates for the 2-year period. Because the payment
amounts have not been finalized, the health rlans have not been able to update the required
financial reports.

Auditor's Recommendation

We recommend that the State agency finalize payments to the health plans and implement the
contract provisions for the risk share program as soon as possible.

Concurrence/Corrective Action Taken or Planned

We concur with the auditor 's findings. The Department of Human Services has completed all of
the retroactive adjustment related to the capitation payments referred to in the Filldings and
Recommendation as of December 20 II. Updated financial statements from the QExA plans will
be submitted by February J7, 2012. ' We expect the risk share calculatiou for state fiscal years
ending June 2009 and June 2010 to be completed by March 2, 20 12.




                                  AN EQUAL OPPORTUNITY AGENCY
